No.
V .

------Court, U.s.
Suprerne
FILED

IN THE

APR 0 9 2021

SUPREME COURT OF THE UNITED STATESl

Alexander Olivieri

of the clehk

— PETITIONER

(Your Name)
vs.
Bobby

Lumpkin,

Dir.

TDC3

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals,

Fifth Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Alexander

Olivieri

(Your Name)
899

FM

632

-

Connally

Unit

(Address)
Kenedy,

Texas,

78119

(City, State, Zip Code)
none

(Phone Number)

RECEIVED
APR 1 5 2021

!

Question(s) Presented
Is The Fifth Circuit effectivly overturning The Supreme
Court, and it's own rulings in not granting Olivieri a
Certificate of Appealability to consider if Olivieri might
overcome a procedural bar on certian Ineffective Assistance of
Counsel claims on account of Martinez v.
Thaler?

Ryan and Trevino v.

LIST OF PARTIES
Bobby Lumpkin, Director, Texas Departament of Criminal Justice
Instutional Division
'RELATED CASES
State v. Olivieri, 263rd district court of Texas, 1301922, 1st
August 2012, unpublished
Olivieri v. State, First Court of Appeals of Texas,01-12-00722-CR
, 20th Febuary 2014, unpublished
Olivieri v State, Texas Court of Criminal Appeals,
5th June 2014,

PD-039B-14,

unpublished

Olivieri v. State, Texas Court of Criminal Appeals, UR 87492-01,
22nd August, 2018,' unpublished
Olivieri v. State, Texas Court of Criminal Appeals, UR 87492-03,
?? May, 2019, unpublished
Olivieri,V . Davis, S. Dist. of Texas (Htiuston) ,4:18-cv-04471 ,
27th Febuary, 2020, publishing unknown
Olivieri v..Lumpkin, US Court of Appeals
2 November, 2020, publishing unknown

(5th Cir), 20-201 66,

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

5

REASONS FOR GRANTING THE WRIT

7

CONCLUSION

10

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

Order Dening COfl from US CT of Appeals,

5th Circuit

Opinion dening relief from District Court

r*

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

Martinez v. Ryan 566 US 1

(2012)

5,7

Trevino v. Thaler, 569 US 413 (2013)

7

Coleman v. Gooduiin 833 F.3d 537 (5th Cir.2016)

7

Miller-El v. Cockrell, 537 U5 322,338 (2003)

9

Fuller v. Johnson 114 F.3d 491,495 (5th Cir.1997)

9

STATUTES AND RULES
US Constutition,

Amendment VI

3

US Constutition, Amendment XIV section.1

3

28 USC §2253

3

28 USC §2254

4

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[Vj For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

8

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[l/] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
%Q/ho
was 2[ ] No petition for rehearing was timely filed in my case.
[\4 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
U-r 'l^rPv t and a COpy 0f the
order denying rehearing appears at Appendix A//4 CJo&K)
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
------------- ------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

a
/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
US Const., Amendment VI
In all criminal prosecutions, the accused shall enjoy the right
to a speedy and public trial, by an impartial jury of the State
and District wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be r.n
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.

US Const., Amendment XIV sec. 1
All persons born or naturalized in the United States,

and subject

to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal t.t
protection of the laws.

20 USC §2253(c)(2)
In order to obtain a COA to appeal the denial of a habeas
petition, an Applicant must make a substantial showing of the
denial of a constutional right.

3

28 USC §2254 (b)(1)
An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgement of a State court shall not
be grante.d unless it appears that(A) the applicant has exhausted the remedies available in the
courts of the state; or
(B)(i) there is an absence of available State corrective process ;
or
(ii) circumstances ex1st .that render such process ineffective to
protect the rights of the applicant.

4

STATEMENT OF THE CASE
In 2011 Alexander Olivieri was charged with first degre
murder in relation to the death of Bridgett Frisbie. At the
conclusion of a four day jury trial in 2012, Olivieri was found
guilty and sentenced to sixty years imprisonment. After the
conclusion of direct appeals Olivieri filed his initial state
application for writ of habeas corpus in 2015. The following year
Olivieri was able to discover documents from his trial counsel
which Olivieri beleives demonstrate said counsel's inefectivness.
After some research, in 2017 Olivieri asks for and is appointed
counsel on his state habeas petition to assist him in amending
it. By late 2017 amendments were prepaired for the state habeas
petiton. Olivieri's habeas counsel failed to file these amendments
nor was he permitted to withdraw the petition, and in mid 201B
Olivieri's State Habeas petiton was denied. Olivieri then filed
a subsequent state petition and a Federal Petition for Habeas
Corpus, with a motion for stay and abayance on the latter, which
was granted. The State Habeas petiton was dismissed in early 2019.
At the Federal level,

Olivieri raised multible issues, the bulk

of which were some form of Ineffective Assistance of Trial 7:
Counsel. Most of those either relied heavily on evidence found
in 2016, or weren't in the first State habeas petition at all
(though they were in the proposed amendments and second state
habeas petition.)# Olivieri argued then that they should be
considered because of this Honorable Court's holdings in Martinez
-V. • Ryan 132 S.Ct.13Q9 (2012). In early 2020 The District Federal

5*

Court denied Olivieri's Federal Habeas Petition, ruling in

’

•. 1

relation to the IATC claims that they were either procedurally
barred or that Olivieri did not overcome the deference that was
given to prior state court findings. No mention was given as to
whether or not the Martinez exemption might or might not apply.
In mid 2020 Olivieri applied for a certificate of appealability
to the United States Court of Appeals,

5th circuit arguing among

other things that the proper standards weren't used in relation
to Olivieri's IATC claims as to if any were procedurally barred,
and the amount of deference to state findings were proper.

In

The Fifth Circuit's denial of 'Olivieri's application for COA,
they merely state the standard and blankly state that Olivieri
did not meet it .

Olivieri filed a motion for reconsiderion ,

focusing somewhat more on the nature of the underlying IATC ~ 1\n
claims that were ignored, but received a similar responce, both
in late 2020 .

b

:

REASONS FOR GRANTING THE PETITION
Allow ms to cut to the chase and ask the root question at
hand: Is this a judicial system that'is fundamentally based on
consistance and respect of precident or is this a system of
caprice where lower courts can and should feel comfortable making
decisions irrespective of caselaw built up by either themselves
or this Honorable Court?
In reference to Question One (should have been granted-COAfor procedural bar due to district court overlooking Martinez)
Allow me to reiterate in a different way the Fifth Circuit's
decision: The Fifth Circuit is saying that The District Court is
undebatably correct in saying that certain IATC claims are barred
without even consideration of if they even might meet the
standard to overcome a bar set forth in Martinez v.Ryan 566 US 1.
and/or the district court was undebatably correct determining
that said claims might not even potencially be a denial of a
constitutional right.!
Olivieri's research seems to indicate that perhaps the
standard set forth in Martinez, verified as applicable to Texas
by Trevino v. Thaler, 569 U5 413 (2013)

and seeminly usually

followed by the Fifth Circuit itself in cases like Coleman v.
Goodwin 833 F.3d.537 (5th cir.2016) should be applicable to this
case because all the elements set forth by this Court exist
because :

Olivieri's barred IATC claims are potentially reversable

errors. The terribly late and ineffective habeas counsel hindered
and ultimatly prevented timly amendment of Olivieri's initial
state Habeas petition, made without counsel,

^7

and as previously

established by This Honorable Court, the Martinez rule applies to
Texas. Whether or not Olivieri's State Habeas counsel's non ?: i ^
action in not filing a timly amendment or notifingnOlivieri so
that Olivieri could do so pro se is sufficient inaction to allow
Olivieri to overcome a procedural bar under Martinez.01ivieri
would think would be the main point of debate. Olivieri argues
that this is highly debatable, in favor of Olivieri's position.
In relation to the bar;redyclaims~which The Fifth Circuit may be
saying do not constitute a denial of a constitutional right.
Olivieri notes that he is alleging Ineffective Assistance of
Trial Counsel. This is probably the most heavily litigated type
of error seen on habeas actions. Specifically Olivieri alleges
his counsel was ineffective for failing to use documentary
evidence to cross examine the State's expert, which Olivieri says
would provide critical physical evidence support to the defense
theory that Olivieri did not have access to the murder weapon,
undermining the State's theory perhaps critically. Olivieri also
alleges that counsel was ineffective in his cross examination of
a critical witness,

Zach Richards, who could be shown in the

record to make contradictory statements, and object to his
testimony on the grounds that not only did it's content differ
substancially from initial statements to police, but the Defense
wasn't given discovery as to the content of this testimony
beforehand. Olivieri argues that there is a long litany of cases
that indicate that such things are reversable denials of ones
constutional rights to counsel and due process. Whether the
specific allegations are reversable Olivieri argues is debatable?

8

However, Olivieri would also argue that This Honorable Court
hn
has ruled (in Miller-El v. Cockrell, 537 US 322,338 (2003)) that
the determination of merit of particular claims is mostly beyond
the scope of an application for certificate of appealability. Is
seems this Court has determined that issues that are debatable n r
are basically cases that should be given certificates of Appeala­
bility. The Fifth Circuit itself has precident of this philosophy
see : Fuller v. Johnson 114 F.3d 491,495 (5th Cir.1997). Olivieri
argues that in the name of consistancy, this practice should have
been followed in his case and Olivieri should have been granted
COA, therefore to correct this, and to show lower courts the
value of consistancy, a writ of certorari should be granted to
determine if Olivieri"should 'even have the opportunity to have
the Federal courts determine if his constutional rights have been
violated .
Dear reader, be you an Honorable Justice of The Court or an
up and coming law clerk, I would have you know I am a realist. My
experience with the courts has shown me that seemingly because I
am a pro se, exparte, prisoner litigant, that means that I am
regarded as basically wrong, and my arguments not worthy of being
entertained. It saddens me that this nation, which I swore to
defend as younger man, would so casually disregard it's constitui
ticn which I swore to uphold and defend. I cry to be heard, for
even consideration of the possibility that I might be illegally
confined. I expect I will be ignored. Please, prove me wrong .

1

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Vs* Mmh , V)1-I

APPENDIX
Appendix A: Order dening COA from COA from US Court of Appeals,
Fifth Circuit

page 1

Appendix B: Opinion Dening relief from District Court

page 2

